           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
        STATE OF COLORADO
     FOR THE FISCAL YEAR ENDED
             June 30, 2009

     December 2010   A-77-11-00005




 MANAGEMENT
ADVISORY REPORT
                                      Mis s ion
B y c onduc ting independent and objec tive audits , evaluations and
inves tigations , we ins pire public c onfidenc e in the integrity and s ec urity of
S S A’s programs and operations and protec t them agains t fraud, was te and
abus e. We provide timely, us eful and reliable information and advic e to
Adminis tration offic ials , C ongres s and the public .

                                     Authority
T he Ins pec tor G eneral Ac t c reated independent audit and inves tigative
units , c alled the Offic e of Ins pec tor G eneral (OIG ). T he mis s ion of the OIG ,
as s pelled out in the Ac t, is to:

   C onduc t and s upervis e independent and objec tive audits and
    inves tigations relating to agenc y programs and operations .
   P romote ec onomy, effec tivenes s , and effic ienc y within the agenc y.
   P revent and detec t fraud, was te, and abus e in agenc y programs and
    operations .
   R eview and make rec ommendations regarding exis ting and
    propos ed legis lation and regulations relating to agenc y programs
    and operations .
   K eep the agenc y head and the C ongres s fully and c urrently informed
    of problems in agenc y programs and operations .

  T o ens ure objec tivity, the IG Ac t empowers the IG with:

   Independenc e to determine what reviews to perform.
   Ac c es s to all information nec es s ary for the reviews .
   Authority to publis h findings and rec ommendations bas ed on the
    reviews .

                                       V is ion
W e s trive for c ontinual improvement in S S A’s programs , operations and
management by proac tively s eeking new ways to prevent and deter fraud,
was te and abus e. We c ommit to integrity and exc ellenc e by s upporting an
environment that provides a valuable public s ervic e while enc ouraging
employee development and retention and fos tering divers ity and
innovation.
                                       SOCIAL SECURITY
MEMORANDUM

Date:      December 1, 2010                                                 Refer To:

To:        Rebecca Tothero
           Acting Director
           Audit Management and Liaison Staff

From:      Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Colorado for the Fiscal Year
           Ended June 30, 2009 (A-77-11-00005)


           This report presents the Social Security Administration’s (SSA) portion of the single
           audit of the State of Colorado for the Fiscal Year (FY) ended June 30, 2009. Our
           objective was to report internal control weaknesses, noncompliance issues, and
           unallowable costs identified in the single audit to SSA for resolution action.

           The Colorado State Auditor performed the audit. The results of the desk review
           conducted by the Department of Health and Human Services (HHS) concluded that the
           audit met Federal requirements. In reporting the results of the single audit, we relied
           entirely on the internal control and compliance work performed by the Colorado State
           Auditor and the reviews performed by HHS. We conducted our review in accordance
           with the Council of the Inspectors General on Integrity and Efficiency’s Quality
           Standards for Inspections.

           For single audit purposes, the Office of Management and Budget assigns Federal
           programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
           Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
           CFDA number 96. SSA is responsible for resolving single audit findings reported under
           this CFDA number.

           The Colorado Disability Determination Services (DDS) performs disability
           determinations under SSA’s DI and SSI programs in accordance with Federal
           regulations. The DDS is reimbursed for 100 percent of allowable costs. The Colorado
           Department of Human Services (CDHS) is the DDS’ parent agency.

           The single audit reported CDHS did not:

           •   Submit a FY 2009 Public Assistance Cost Allocation Plan (PACAP) amendment or
               certification statement to the HHS Division of Cost Allocation (DCA) as required by
               Federal regulations. In addition, CDHS charged indirect costs based on PACAP
Page 2 – Rebecca Tothero


    amendments that had not been approved by DCA (Attachment A, Pages 1and 2).
    The corrective action plan indicates CDHS will follow established Federal regulations
    in the future and will make necessary accounting and reporting adjustments upon
    DCA’s approval of the PACAP amendments (Attachment A, Page 3).

•   Have proper internal controls over purchasing cards (Attachment A, Pages 3
    through 6). The corrective action plan indicates improvements will be made over
    purchasing cards including updating policies and training materials (Attachment A,
    Page 7).

We recommend that SSA:

1. Verify that CDHS submitted a FY 2009 PACAP amendment or certification
   statement to DCA.

2. Upon DCA’s approval of the PACAP amendments, work with CDHS to ensure that
   indirect costs charged to the Colorado DDS during FY 2009 were in accordance with
   the PACAP’s approved methodologies

3. Verify that CDHS developed appropriate internal controls over purchasing cards.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. I am bringing these matters to
your attention as they represent potentially serious service delivery and financial control
problems for the Agency. Specifically, CDHS did not have adequate internal controls
over

•   timesheet certifications (Attachment B, Pages 1 and 2),

•   travel expenditures (Attachment B, Pages 2 through 5), and

•   telecommunication services (Attachment B, Pages 5 through 7).

Please send copies of the final Audit Clearance Document to Shannon Agee. If you
have questions, contact Shannon Agee at (816) 221-0315, extension 1537.




                                          Patrick P. O’Carroll, Jr.

Attachments
                                                                           Attachment A
                                                                             Page 1 of 7

Public Assistance Cost Allocation Plan
Under federal regulations, entities that receive federal public assistance awards
may be reimbursed for a portion of the indirect costs for the program. Indirect
costs, or overhead costs, are those that support more than one program. One
example of these costs is the expense associated with employing a staff person
who performs accounting functions for multiple programs. In order to recover
these costs, state agencies such as the Department must develop a Public
Assistance Cost Allocation Plan (P ACAP) that provides a reasonable and
consistent basis for allocating costs to each of the federal programs operated by
the agency. The PACAP must be prepared in accordance with federal guidelines
and must be submitted to and approved by the Division of Cost Allocation (DCA)
within the U.S. Department of Health and Human Services. The Department
recovered $8.9 million in federal funds for state indirect costs associated with
federal programs for Fiscal Year 2009.

Federal regulations provide two options for yearly submissions of cost allocation
information.

   •   Option 1: Amendment of PACAP. If the state determines procedures in
       the existing, federally approved plan have become outdated due to
       organizational changes, changes in federal law, or program changes, the
       state is required to submit an amended plan to DCA promptly after such
       changes occur.

   •   Option 2: Certification Statement. If the state determines the existing,
       federally approved PACAP is not outdated, the state can submit a
       statement within 60 days after the end of the state fiscal year to DCA
       certifying this conclusion.

During our Fiscal Year 2009 audit, we noted that the Department had not
submitted an amended PACAP or a certification statement for the current fiscal
year. The Department based indirect cost allocations for Fiscal Year 2009 on the
most recent federally approved PACAP, which was for Fiscal Year 2007, and on
the two Fiscal Year 2008 PACAP amendments submitted in April and May 2009.
As of the end of our audit, these amendments had not yet been approved by DCA.

The Fiscal Year 2008 amendment dated May 2009 included prospective changes
for Fiscal Years 2009 and 2010. These changes resulted from the Department's
completing a DCA-requested comprehensive review of random moment sampling
program/activity structures. The Department uses the random moment sampling
method to allocate the cost of county staff activities among public assistance
programs. The changes that were relevant to Fiscal Year 2009 were retroactively
implemented as ofJuly 1,2008, the beginning of Fiscal Year 2009.

In June 2009, the Department reported that it was in the process of preparing a
Fiscal Year 2009 amendment to the PACAP and was planning to submit it to
DCA by September 30, 2009. This amendment is in addition to the prospective
Fiscal Year 2009 changes already submitted in the Fiscal Year 2008 amendment.
                                                                              Attachment A
                                                                                Page 2 of 7
Staff stated that DCA instructed the Department not to submit the Fiscal Year
2009 amendment until after the above-mentioned Fiscal Year 2008 amendments
were approved.

Without a federally approved PACAP in place, the Department has a risk that
DCA will not approve the methodology the Department is using for Fiscal Year
2009, and that a portion of claims for federal reimbursements for the period may
be disallowed by the federal government. The federal cost recoveries may require
adjustment, and cost amounts charged to the respective assistance programs may
need to be corrected in future periods. In addition, this means that final cost data
for administering the assistance programs at the Department is not available in a
timely manner, which makes program cost information less meaningful for
decision-makers.

(See Appendix A, Department of Human Services, for listing of applicable CFDA
Nos. Allowable Costs/Cost Principles. Classification of Finding: Control
Deficiency. )



Recommendation No. 123:
The Department of Human Services should improve controls over the indirect
cost process by:

   a. Submitting the Fiscal Year 2009 Amendment to the Public Assistance
      Cost Allocation Plan (P ACAP).

   b. Correcting the allocation of indirect costs for Fiscal Year 2009 according
      to the final 2008 and 2009 Amendments to the PACAP, after federal
      approval. If the resulting reallocations are material, the Department
      should make the appropriate accounting and reporting corrections.

   c. Ensuring future PACAP amendments are submitted within the required
      time frames, or certification statements are submitted within 60 days ofthe
      end of the fiscal year, whichever is applicable and in accordance with
      federal regulations.

       Department of Human Services Response:
       a. Agree. Implementation date: May 31, 2010.

           The Department will submit an Amendment to the Fiscal Year 2009
           PACAP, if applicable.
                                                                            Attachment A
                                                                              Page 3 of 7
       b. Agree. Implementation date: May 31, 2010.

           The Department will process reallocations to make the appropriate
           accounting and reporting adjustments to DCA' s instructions provided
           on the approved letter for recasting changes that should not have been
           implemented in Fiscal Year 2009.

       c. Agree. Implementation date: June 30, 2010.

           The Department will follow the established federal regulations to
           submit future amendments to the PACAP within the required time
           frames. If the current federally approved PACAP is not outdated, the
           Department will follow the established regulations to subruit
           certification statements within the required time frames.

Purchasing Cards
The purchasing card program was adopted by the Department to facilitate
purchases of less than $5,000. The goal of the program is to facilitate state
employees' ability to acquire goods and services of less than $5,000 while
providing timely payments to merchants and reducing the number of small dollar
payments issued by the State's vouchering system.

During Fiscal Year 2009, the Department spent approximately $10.6 ruillion
through purchasing card usage. F or that period the Department reported an
average number of monthly transactions of nearly 4,000 and average monthly
purchases of approximately $883,000. At the end of Fiscal Year 2009, 853
Department employees, or nearly 16 percent of its approximately 5,500
employees, had been issued purchasing cards.

All Department employees are potentially eligible for a purchasing card. Cards
are awarded based on an employee ' s need to make authorized purchases in order
to conduct state business. An employee becomes a cardholder by completing the
cardholder account form, attending training, and obtaining approval from his or
her designated approving official, typically the employee's manager. All charges
made on the card are the liability of the Department; the cardholder has no
personal liability unless the cardholder violates the terms of card use.

As part of our Fiscal Year 2009 audit, we tested 63 purchasing card transactions.
Of those transactions, we found exceptions in 16 (25 percent) of the transactions.
These exceptions included $64 in questioned costs in two transactions charged to
the Colorado Child Care Assistance Program (CCCAP) (CFDA Nos. 93.575 and
93.596, Recovery Act No. 93.713). As described below, we identified a total of
five issues related to the automatic payments, review and monitoring procedures,
timely account closure, and account coding of purchasing card use in the
Department.

Automatic Payments: Automatic payments for recurring monthly charges
require initial cardholder authorization and allow the vendor to make periodic
charges against the card without obtaining the purchasing cardholder's approval
                                                                            Attachment A
                                                                              Page 4 of 7
after the initial agreement. Purchasing managers at the Department reported that
automatic payments are prohibited transactions because they had noted instances
when automatic payments occurred after an employee had either terminated
employment with the State or relinquished their purchasing card. While
Department personnel reported that they had communicated this information to
users in purchasing card trainings, our test work found that this prohibition has
not been formalized in the Department's Purchasing Card Manual.

We found a total of two transactions for $607, charged by CCCAP and Disability
Determination Services (DDS) staff, that had been set up as automatic payments
with the vendor. One was for monthly Internet usage of $22 for a CCCAP staff
person who works from home. Program management was unable to demonstrate
that the Internet connection has been reserved exclusively for state business use.
Moreover, the Department has not developed policies concerning the use of State-
provided support for home offices. The $22 payment is a questioned cost under
CCCAP.

The second transaction, for $585, was an automatic payment for State-issued
cellular phones for DDS staff. Staff reported that all cardholders' State-issued
cell phone monthly charges for DDS staff had been set up as auto payments for
several years. Our concerns with the DDS program are that automatic payments
are currently in use; however, the charges are allowable under the grant and
therefore we did not identify these as questioned costs.

Timely cardholder and approving official review and signatures: Department
policy requires that at the end of each billing cycle, the cardholder is to supply
supporting documentation for all the purchases during that period, review account
coding, sign the billing statement, and forward all the information to the
approving official. The approving official is responsible for performing a
secondary review, verifying the accuracy and appropriateness of the purchases,
and applying his or her siguature and date to the statement. Both the cardholder
and approving official must review and sign off on the monthly statement by the
end of the following month. We identified ten transactions totaling approximately
$1,032 where review procedures were not followed. Four statements had not
been signed by the cardholder; four statements had not been signed by the
approving official; and ten statements had not been signed by the end of the
month following the statement, as required. Timely cardholder and approving
official signatures are important because they indicate that the monthly purchases
have been reviewed for accuracy and allowability and have been subj ect to a
       .         .
supervIsory revIew.

Of the $1,032, the amount of $42 is a questioned cost under CCCAP because the
statement had not been sigued by the approving official in a timely fashion, as
required.
                                                                             Attachment A
                                                                               Page 5 of 7
Monitoring Procedures: During Fiscal Year 2008, the Department introduced
an automated system for tracking purchasing card violations identified through its
internal procurement card audits, and for tracking the actions taken by approving
officials in response to these violations, but did not complete the implementation
of reporting functions. In Fiscal Year 2009 the Department completed the
implementation of the reporting functions of the violations tracking system.
However, due to staff turnover at the Procurement Office, the reporting function
was not being utilized in the second half of Fiscal Year 2009. The Department
should use the automated system to monitor and follow up on purchasing card
violations.

Timely Account Closure: When an employee leaves the Department, the
employee's approving official is required by Department policy to take the card
from the cardholder and notify the Department's Procurement Office through
completion of an account closure form. Department Procurement Office staff are
to close the cardholder's account. Department policy does not state specific time-
frame requirements for notifying Procurement and for closing accounts. During
the Fiscal Year 2009 audit, we tested a sample of 23 closed accounts and
identified four instances (17 percent) in which the approving official did not
notify Procurement of a cardholder's termination in a timely manner. The late
notifications ranged from 23 to 34 days after the employee's termination date. As
a result, the purchasing card accounts were closed between 23 and 38 days after
employment terminated. We did not identify any inappropriate payments that
were associated with these late account closures. We also identified issues with
the Department' s internal controls over closing purchasing card accounts in a
timely manner in the Fiscal Year 2008 audit.

During Fiscal Year 2009, the Department implemented a procedure where the
Department's Payroll Office sends a monthly termination report to the
Procurement Office. This enables Procurement staff to identify terminated
cardholders and close accounts in a more timely manner. This process has
improved time frames compared to the late account closures found during the
Fiscal Year 2008 audit. However, the late account closure rate is still high and of
concern.

Account coding errors: The use of the proper account code is important because
it allows the Department to accurately track costs by type of purchase in order to
ensure that costs incurred are reasonable. We found six transactions totaling
approximately $1,034 that were coded to an improper account code.

Adequate controls over purchasing cards are important because card use is at risk
for fraud and abuse and because the State, not the cardholder, is liable for
purchasing card transactions.
                                                                            Attachment A
                                                                              Page 6 of 7
(CFDA Nos. 93.575, 93.596, 93.713; Child Care and Development Block Grant,
Child Care Mandatory and Matching Funds of the Child Care and Development
Fund, and American Recovery and Reinvestment Act Child Care and
Development Block Grant; Activities Allowed or Unallowed, Allowable
Costs/Cost Principles. Classification of Finding: Significant Deficiency.)



Recommendation No. 120:
The Department of Human Services should improve its internal controls over
purchasing cards by:

   a. Continuing to train approvmg officials and cardholders on their
      responsibilities to ensure compliance with Department policy and
      imposing consequences for policy violations. The training should clearly
      emphasize the required timeline for review and signoff of monthly
      statements.

   b. Updating all written purchasing card policies to indicate that recurring,
      automatic charges and payments are prohibited purchases, clearly
      communicating this requirement to all cardholders, and ensuring that all
      established automatic payments currently being processed are identified
      and deactivated by the cardholders.

   c. Utilizing the automated violation tracking system' s reporting function to
      monitor the results of the Department' s internal purchasing card audits and
      ensuring the actions taken by approving authorities in response to
      cardholder violations are adequate.

   d. Ensuring purchasing card accounts are closed in a timely manner upon
      employee termination. The Department should update purchasing card
      policies to state specific time-frame requirements for notifying
      Procurement and for closing accounts. These requirements should then be
      clearly communicated to approving officials and Procurement Office staff.
      The Department should also consider providing employee termination
      reports to the Procurement Office more frequently than once a month.

   e. Coding all procurement card purchases accurately in the State's
      accounting system, COFRS.
                                                                    Attachment A
                                                                      Page 7 of 7

Department of Human Services Response:
a. Agree. Implementation date: April 2010.

   The Department will continue to train approving officials and
   cardholders on their responsibilities. Emphasis will be made on the
   need to review and sign off on the monthly statement by the end of
   following month, the requirement to comply with Department policy,
   and the possible consequences for policy violations. A reminder,
   including the Department's potential liability, should be added to
   Accounting's monthly closing email sent to all cardholders.

b. Partially agree. Implementation date: April 2010.

   The State Purchasing Card Manual does not prohibit automatic
   payments. However, the Department agrees that automatic payments
   need to be addressed. The purchasing card policy and training
   materials will be updated, requiring cardholders and approving
   officials to have dual access to accounts set up with automatic
   payments. Agreements with cardholders and approving officials will
   stipulate their responsibility of deactivating automatic payments upon
   termination. The approving official will be required to sign off upon
   cardholder ' s termination, card return, and notification to the
   Procurement Office that automatic payments have been deactivated.
   Email notification of this policy change will go out to existing
   cardholders and approving officials.

c. Agree. Implementation date: April 2010.

   The database will track purchasing card violations resulting from
   internal purchasing card audits.      Appropriate actions taken by
   approving officials and/or the Procurement Office will be included in
   the database. Exception reports to summarize cardholder violations
   and the types of violations will be submitted to the Deputy Executive
   Directors for their review and determination of appropriate follow-up
   actions.

d. Agree. Implementation date: April 2010.

   The Department will update the purchasing card policy to provide a
   required time frame for closing accounts upon cardholder termination.
   Cardholders and approving officials must take responsibility for
   closing and notifying the Procurement Office immediately upon
   termination. Accounts should be closed within 14 days following
   termination. The frequency and availability of termination reports will
   be evaluated with the Payroll Office.
e. Agree. Implementation date: April 2010.

   The Department will continue to train employees, cardholders, and
   approving officials on the importance of the proper use of expenditure
   obj ect code.
                                                                            Attachment B
                                                                              Page 1 of 7

Time Sheet Certification
During Fiscal Year 2009, the Department spent nearly $277 million on salaries
and wages and had approximately 5,500 full-time-equivalent employees. The
Department's employees are paid through the Colorado Personnel Payroll System,
and payroll amounts are reflected in COFRS.

Employees record their time in the Department's timekeeping system, on either a
monthly or a biweekly basis. On this same basis, unit timekeepers are responsible
to approve time sheets in the Department's timekeeping system for the pay
period. The time sheets are to be printed and signed by both the employee and the
supervisor within 20 calendar days of the close of the system. The signatures
certify that the information on the time sheet is complete and accurate. Unit
timekeepers are responsible for maintaining the certified time sheets.

During Fiscal Year 2009, we tested internal controls over monthly and biweekly
payrolls. In relation to this testwork, we reviewed a total of 198 employee time
sheets. We found problems with 93 (47 percent) of the 198 time sheets.
Specifically, we identified the following:

   •   65 time sheets were not certified timely by the employee, the supervisor,
       or both.

   •   16 certified time sheets could not be provided by the Department.

   •   11 time sheets were not provided by the Department when originally
       requested. Once the Department did provide the time sheets, they were
       not certified timely.

   •   One of the time sheets reviewed had been backdated by both the employee
       and the supervisor.

Although the problems identified in our sample did not impact the amounts paid
to the employees, payroll is an inherently high-risk area. The lack of adequate
controls and supervision indicate an environment in which errors and
irregularities could occur and not be detected in a timely manner, which could
result in more significant problems. The Department should improve its controls
to ensure that time sheets are certified within the timeframes established by
Department policy.

(Classification of Finding: Significant Deficiency.)



Recommendation No. 16:
The Department of Human Services should improve its controls over the payroll
process by ensuring that time sheets are certified within the timeframes specified
in Department policy and are maintained and available for review.
                                                                             Attachment B
                                                                               Page 2 of 7

       Department of Human Services Response:
       Agree. Implementation date: April 1, 2010.

       It appears that the exceptions identified in the payroll samples were
       largely from two areas, Wheat Ridge Regional Center and the Fitzsimons
       Nursing Home. Department staff will contact agency directors to review
       the audit findings and determine where additional communication and/or
       training is needed to convey the importance of staff compliance with time
       sheet certifications and maintaining data so that it is readily available
       when requested for audit.

       In addition, an automated e-mail message will be sent to all staff following
       each of the Department's timekeeping system (Kronos) closings to remind
       employees and supervisors of the requirements of the time sheet
       certification, including timeframes.

Travel Expenditures
During Fiscal Year 2009 the Department spent nearly $1.9 million for employees'
in-state and out-of-state business travel. State Fiscal Rules, issued by the Office
of the State Controller, require State agencies to follow certain procedures
concerning business travel. The Department also issued its own policies and
procedures governing authorization of travel and reimbursement of employees'
travel expenditures. State and Department rules and policies are in place to
ensure that travel charges using State funds are proper and not abusive.

Although State Fiscal Rules and Department policies provide clear requirements
for processing for travel reimbursements, our review indicates that employees and
supervisors are not consistently adhering to and enforcing the policies. As part of
our Fiscal Year 2009 audit, we reviewed a sample of 58 travel reimbursement
forms totaling nearly $21,000 in expenditures. We identified errors in 17 of the
58 (29 percent) travel reimbursement forms reviewed. In total, 21 errors were
identified, as some travel reimbursement forms contained more than one error.

Specifically, we noted problems in the following four categories:

Incorrect Payment: The mileage rates are deterruined by State Fiscal Rules.
When an employee travels from home directly to an offsite location, only the
mileage in excess of the employee's normal travel to the office is reimbursable.

Per diem amounts are paid to employees based on the arrival and departure time
of the travel and meals paid for at the employees' expense. The rates are set in
the State Fiscal Rules based on the location.
                                                                            Attachment B
                                                                              Page 3 of 7
   •   One employee submitted four travel reimbursement forms totaling $1, 191
       throughout the year. The mileage for the employee traveling from home
       directly to an offsite location was incorrectly calculated in all four
       instances. The employee received reimbursements totaling $581 for
       mileage in excess of the allowable amount based. The reimbursements
       were all charged to Title IV-E Foster Care program (CFDA No. 93.658).
       Therefore, the Department has overpaid this employee a total of $581,
       which is considered questioned costs for the federal program.

   •    One travel reimbursement form approved an employee's dinner per diem
        amount of $24 even though the employee returned from the travel too
        early to receive the per diem amount according to the information
        submitted. A per diem reimbursement for dinner cannot be claimed unless
        the employee returns from travel after 8:00 p.m. The employee provided
        additional information as a result of our audit verifying that the $24 per
        diem amount was valid.        However, the initial reimbursement was
        approved without the information supporting the $24 per diem.
Late submission: Employees must submit a travel reimbursement form within
60 days of the travel to receive reimbursement for out-of-pocket expenses such as
mileage, meals (per diem), lodging, parking, and transportation under State Fiscal
Rules. Two travel reimbursement forms, totaling $880, were not submitted within
this time frame.

Lack of supporting documentation: State Fiscal Rules require that the travel
reimbursement form contain the purpose of the travel, and Department rules
further require that an agenda supporting the travel be attached for conferences
and seminars. Additionally, a Request to Use Private Automobile pre-approval
form is required for reimbursement of travel outside of 65-mile radius with a
personal vehicle.

   •   Three travel reimbursement forms, with expenditures totaling $433, did
       not contain a purpose for the travel.

   •   Six travel reimbursement forms for travel to conferences and seminars,
       with reimbursements totaling $1,804, were not accompanied by agendas
       supporting the business purpose ofthe travel.

   •   Three travel reimbursement forms for travel outside a 65-mile radius, with
       expenditures totaling $1,153, were not accompanied by a pre-approved
       Request to Use Private Automobile form.

Recording Transactions:        The Department is required to ensure that
expenditures are properly recorded and assigned in the State's accounting system,
COFRS. Two travel reimbursement forms, with expenditures totaling $284, were
coded incorrectly. The amounts incorrectly coded on the transactions totaled
$154.

We identified similar weaknesses with the Department's controls over travel
expenditures during our Fiscal Years 2006 and 2008 audits. The error rates noted
                                                                              Attachment B
                                                                                Page 4 of 7
in Fiscal Years 2006 and 2008 were 40 percent and 45 percent, respectively. As a
result of our Fiscal Year 2006 audit recommendation, the Department began
holding quarterly travel forums in Fiscal Year 2008 to train staff on travel
requirements. The Department continued holding the quarterly forums in Fiscal
Year 2009. Additionally, the Department updated its travel policy in Fiscal Year
2008 and issued a travel checklist to assist staff with completing travel
reimbursement requests in Fiscal Year 2009.

While the travel forums and checklist appear to have reduced the number of errors
from past audits, the 29 percent error rate and questioned costs noted in our Fiscal
Year 2009 audit indicates the Department needs to continue strengthening its
controls over travel expenditures. Specifically, the Department should ensure that
employees and supervisors continue to receive training on State and Department
travel rules and policies. Additionally, the Department should consider using its
internal audit function to conduct periodic reviews of travel reimbursement forms
to ensure compliance with travel requirements. The Department cannot ensure
that State funds are properly spent unless it enforces State and Department rules
and policies.
(CFDA No. 93.658; Foster Care_Title-IV-E; Activities Allowed or Unallowed,
Allowable Costs/Cost Principles.          Classification of Finding: Significant
Deficiency. )



Recommendation No. 121:
The Department of Human Services should strengthen controls over travel
expenditures by:

   a. Ensuring that employees and supervisors are consistent in their
      compliance with existing State and Department travel policies, through
      continuing periodic training and enforcement.

   b. Recovering identified overpayments from employees.

   c. Considering using its internal audit function to conduct periodic reviews to
      ensure compliance with State Fiscal Rules and Department policies over
      travel.

       Department of Human Services Response:
       a. Agree. Implementation date: February 28, 2010.

           The Department will continue to improve controls over travel
                                                                            Attachment B
                                                                              Page 5 of 7
           expenditures to ensure that they are processed in compliance with
           existing State and Department travel policies. The quarterly travel
           open forum will be conducted to provide a department-wide training to
           employees and supervisors. The forum will consistently address the
           understanding of Department travel policy, the proper use of travel-
           related forms, the accurate coding of travel expenditures, the
           requirement of supporting documentation, the completion of
           reimbursement requests, the responsibilities of reviewers and
           approvers, and the compliance of rules and policies. Remedial training
           is provided when necessary to staff and supervisors.

       b. Agree. Implementation date: June 30, 2010.

          The Department will contact the employee and his/her supervisor
          about the travel overpayments and will recover $580.70 from the
          employee to reimburse the Title IV-E Foster Care program.
       c. Agree. Implementation date: February 28, 2010.

           The Department considered using the internal audit function but feels a
           review by the supervisors of the vouchering units would be more
           appropriate. The supervisors will perform periodic audits of the travel
           reimbursements processed by the vouchering staff to ensure that travel
           expenditures are processed in compliance with State and Department
           policies.

Telecommunications Charges
Telecommunications services are provided to the Department by the Governor' s
Office of Information and Technology (OIT) and include telephone lines, voice
mail, and local and long-distance calling. OIT bills the Department monthly for
these services via an intergovernmental transfer document, which is recorded on
COFRS. This document results in an automatic transfer of funds from the
Department to OIT to pay for the monthly telecommunications services. In Fiscal
Year 2009, the typical charge to the Department was $30 per month for a single
telephone line and $7.50 per month for voice mail; charges for long-distance calls
varied. In total, over the fiscal year, the Department's average monthly
telecommunications bill from OIT was approximately $101,000. The monthly
bill shows the charges for each of the Department' s divisions and programs; in
Fiscal Year 2009, these charges ranged from about $2 to $52,000 per division or
program.
                                                                                Attachment B
                                                                                  Page 6 of 7
During our Fiscal Year 2009 audit, we identified a total of more than $1,000 in
questioned costs in four federal programs for errors in telecommunications
charges from OIT for telephone lines and/or voice mail. We also noted that the
majority of divisions and programs are not performing a required monthly review
of their respective telecommunications bills from OIT in order to verify the
accuracy of the charges. The monthly review is important to ensure the accuracy
of charges from OIT because routine turnover and transfers of staff can change
telecommunications usage in the Department from month to month. The
erroneous charges we found would have likely have been identified had the
monthly review occurred.

Under Department policy, each of the Department's divisions and programs is
responsible for checking the accuracy of its monthly telecommunications bill. In
2007, OIT introduced and provided training on the Telecommunications Financial
Management System (TFMS). TFMS allows designated Department staff to log
into the system and view details of the monthly telecommunications bill. For
example, TFMS allows the Department to see the amount billed for each of the
Department's 147 divisions and programs, and, within each division and program,
the amount billed for each employee receiving telecommunications services. On
a monthly basis, a designated staff person from each division and program is
required to log into the TFMS system to ensure that the division's or program' s
telecommunications bill is correct and that the staff listed as receiving services are
currently employed by the division or program. After reviewing the monthly bill,
the designee is to either certify the billing as accurate or document any changes
needed. In either case, the reviewed documentation is to be returned to the
Department's Central Accounting Division.

The Department has appointed a single individual at Central Accounting to act as
the main contact person with OIT. This individual accumulates information on
staffing changes between divisions and programs and provides this information to
OIT. This individual also collects the monthly review documents from the
divisions and programs and sends reruinder emails concerning the monthly
revIew.

During Fiscal Year 2009, we found that only six (4 percent) of the 147 divisions
and programs performed monthly certifications as required. Moreover, 82 (56
percent) of the divisions and programs did not once during Fiscal Year 2009
certify their monthly telecommunications bill. In addition, we tested 360
transactions that had been charged to various federal programs, five of which
were telecommunications charges. Each of the five transactions tested included
telephone line billings for staff who had either transferred to other programs or
were no longer employed by the Department, resulting in more than $1,000 in
questioned costs.
                                                                           Attachment B
                                                                             Page 7 of 7
Monthly reviews of the 0 IT telecommunications bills are essential controls to
ensure that the Department pays only for the telecommunications services it
receives. Central Accounting relies on division and program staff to notify it of
staffing changes so that it can forward that information to OIT. To mitigate the
risk of inaccurate telecommunications charges, the Department should strengthen
its controls over the telecommunications payment process.

(CFDA Nos. 10.551, 10.561, 93.558, 93.568, 93.575, 93.596, 93.713;
Supplemental Nutrition Assistance Program Cluster, Temporary Assistance for
Needy Families, Low-Income Home Energy Assistance Program, Child Care and
Development Block Grant, Child Care Mandatory and Matching Funds of the
Child Care and Development Fund, and American Recovery and Reinvestment
Act Child Care and Development Block Grant; Activities Allowed or Unallowed,
Allowable Costs/Cost Principles. Classification of Finding: Control Deficiency.)



Recommendation No. 122:
The Department of Human Services should strengthen its controls over the
telecommunications payment process by ensuring that all divisions and programs
perform monthly reviews of their telecommunications bills in the
Telecommunications Financial Management System (TFMS) and submit signed
certifications and any identified errors to Central Accounting.

       Department of Human Services Response:
       Agree. Implementation date: April 30, 2010.

       The Department will maintain a change log to track all requested changes
       and a certification log to track monthly certification documents that have
       been sent by the divisions and programs. A monthly exception report will
       be provided to division and program managers to advise them of monthly
       certification documents that have been submitted and/or have not been
       submitted to the Department coordinator for TFMS billing. Central
       Accounting will continue to provide ongoing training for all division and
       program staff as needed to address the process and responsibility for
       certifying their telecommunication bills in a timely mauner.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
